   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



June 20, 2011

Report Number: A-07-10-00344

Ms. Sandra Miller
Senior Vice President and President, Federal Government Solutions
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements at Blue
Cross Blue Shield of Georgia for the Period January 1, 2001, to June 30, 2006. We will forward
a copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00344
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




      REVIEW OF THE PENSION
 SEGMENTATION REQUIREMENTS AT
BLUE CROSS BLUE SHIELD OF GEORGIA
         FOR THE PERIOD
 JANUARY 1, 2001, TO JUNE 30, 2006




                         Daniel R. Levinson
                          Inspector General

                             June 2011
                           A-07-10-00344
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                               Notices


        THIS REPORT IS AVAILABLE TO THE PUBLIC
                  at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its
publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Georgia (BCBSGA) administers Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
BCBSGA merged with WellPoint Health Network, Inc. (WHN), and, effective May 31, 2001,
BCBSGA’s pension plan assets from the Non-Contributory Retirement Program were merged
into WHN’s Pension Accumulation Plan. In turn, WHN became a part of Anthem, Inc.
(Anthem), on November 30, 2004, and at that time Anthem changed its name to WellPoint, Inc.
(WellPoint). On June 30, 2006, the Pension Accumulation Plan assets were merged into
WellPoint’s Cash Balance pension plan.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Accordingly, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Prior Pension Audit Report

We performed a prior pension audit at BCBSGA (A-07-07-00236, issued November 16, 2007)
which brought the Medicare segment pension assets to May 31, 2001. The prior audit
recommended that BCBSGA increase the Medicare segment pension assets by $85,564 and
recognize $4,658,857 as the Medicare segment pension assets as of May 31, 2001.

OBJECTIVE

Our objective was to determine whether BCBSGA complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation and

   •   updating the Medicare segment’s pension assets from January 1, 2001, to June 30, 2006.

SUMMARY OF FINDINGS

BCBSGA properly implemented the prior audit recommendation; however, BCBSGA did not
always comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements while updating the Medicare segment pension assets from January 1, 2001, to


                                                 i
June 30, 2006. BCBSGA identified Medicare segment pension assets of $2,987,361; however,
we determined that the Medicare segment pension assets were $2,823,263 as of June 30, 2006.
As a result, BCBSGA overstated the Medicare segment pension assets by $164,098.

RECOMMENDATION

We recommend that BCBSGA decrease its Medicare segment pension assets as of
June 30, 2006, by $164,098 and recognize $2,823,263 as the Medicare segment pension assets.

AUDITEE COMMENTS

In written comments on our draft report, National Government Services (NGS) concurred with
our finding and recommendation. BCBSGA’s Medicare contract was transitioned to NGS
effective November 11, 2006; therefore, NGS responded to our draft report.

While concurring with our finding and recommendation, NGS also suggested a revision to one
portion of the background material in the report.

NGS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we determined that the suggested revision does not
enhance the clarity or accuracy of this report. Therefore, we did not incorporate NGS’s
suggested revision into this report.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Georgia and Medicare .............................................. 1
              Federal Requirements ......................................................................................... 1
              Pension Segmentation ......................................................................................... 1
              Prior Pension Audit Report ................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATION.............................................................................. 3

          PRIOR AUDIT RECOMMENDATION ........................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS........................................ 4
              Federal Requirements ......................................................................................... 4
              Contributions and Prepayment Credits Understated ........................................... 5
              Benefit Payments Understated ............................................................................ 5
              Net Transfers Understated .................................................................................. 6
              Earnings, Net Expenses Overstated .................................................................... 6

          RECOMMENDATION .................................................................................................. 6

          AUDITEE COMMENTS................................................................................................ 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 7

APPENDIXES

          A: BLUE CROSS BLUE SHIELD OF GEORGIA STATEMENT OF
             MARKET VALUE OF PENSION ASSETS FOR THE PERIOD
             JANUARY 1, 2001, TO JUNE 30, 2006

          B: AUDITEE COMMENTS




                                                                     iii
                   Glossary of Abbreviations and Acronyms

BCBSGA   Blue Cross Blue Shield of Georgia
CAS      Cost Accounting Standards
CMS      Centers for Medicare & Medicaid Services
FAR      Federal Acquisition Regulation
WAV      weighted average value




                                       iv
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Georgia and Medicare

Blue Cross Blue Shield of Georgia (BCBSGA) administers Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
BCBSGA merged with WellPoint Health Network, Inc. (WHN), and, effective May 31, 2001,
BCBSGA’s pension plan assets from the Non-Contributory Retirement Program were merged
into WHN’s Pension Accumulation Plan. In turn, WHN became a part of Anthem, Inc.
(Anthem), on November 30, 2004, and at that time Anthem changed its name to WellPoint, Inc.
(WellPoint). On June 30, 2006, the Pension Accumulation Plan assets were merged into
WellPoint’s Cash Balance pension plan.

Effective November 11, 2006, a consolidation of certain Medicare operations occurred, forming
a new subsidiary of WellPoint called National Government Services (NGS). This consolidation
included the BCBSGA Medicare segment, which was maintained separately from other
Medicare operations. Thus, although we are addressing this report to NGS, we will associate the
term BCBSGA with our finding and recommendation regarding the segmentation of the Pension
Accumulation Plan for the period January 1, 2001, to June 30, 2006.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.




                                                 1
Prior Pension Audit Report

We performed a prior pension audit at BCBSGA (A-07-07-00236, issued November 16, 2007)
which brought the Medicare segment pension assets to May 31, 2001. The prior audit
recommended that BCBSGA increase the Medicare segment pension assets by $85,564 and
recognize $4,658,857 as the Medicare segment pension assets as of May 31, 2001.

Although our prior audit recommended an asset adjustment as of May 31, 2001, the Total
Company assets used in the prior report did not account for accrued contributions allocated to
plan year 2001. During the current audit, we adjusted the Total Company assets to properly
account for all accrued contributions that were allocated to plan year 2001. Appendix A
identifies the adjusted Medicare segment pension assets from January 1, 2001, through
December 31, 2001, as well as details on the Medicare segment’s pension assets from that point
to June 30, 2006, as determined during our audit.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether BCBSGA complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    implementing the prior audit recommendation and

   •    updating the Medicare segment’s pension assets from January 1, 2001, to June 30, 2006.

Scope

We reviewed BCBSGA’s identification of its Medicare segment and its update of Medicare
segment pension assets from January 1, 2001, to June 30, 2006.

Achieving our objective did not require us to review BCBSGA’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment and the
update of the segment’s assets to ensure adherence to the Medicare contracts, CAS 412, and
CAS 413.

We performed fieldwork at BCBSGA’s office in Atlanta, Georgia, during September 2009.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.




                                               2
   •   We reviewed the annual actuarial valuation reports prepared by BCBSGA’s actuarial
       consulting firms, which included the pension plan’s assets, liabilities, normal costs,
       contributions, benefit payments, investment earnings, and administrative expenses. We
       used this information to calculate the Medicare pension segment assets.

   •   We obtained and reviewed the pension plan documents and Department of Labor/Internal
       Revenue Service Forms 5500 used in calculating the Medicare segment pension assets.

   •   We interviewed BCBSGA staff responsible for identifying the Medicare segment to
       determine whether the segment was properly identified in accordance with the Medicare
       contracts.

   •   We reviewed BCBSGA’s accounting records to verify the segment identification and
       benefit payments made to the Medicare segment.

   •   We reviewed the prior segmentation audit performed at BCBSGA (A-07-07-00236) to
       determine the beginning value of assets.

   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate the Medicare segment pension assets from January 1, 2001, to
       June 30, 2006.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of BCBGA’s pension costs claimed for
Medicare reimbursement (A-07-10-00345) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

BCBSGA properly implemented the prior audit recommendation; however, BCBSGA did not
always comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements while updating the Medicare segment pension assets from January 1, 2001, to
June 30, 2006. BCBSGA identified Medicare segment pension assets of $2,987,361; however,
we determined that the Medicare segment pension assets were $2,823,263 as of June 30, 2006.
As a result, BCBSGA overstated the Medicare segment pension assets by $164,098.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 2001, to
June 30, 2006, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.


                                               3
                     Table 1: Summary of Audit Adjustments
                                          Per Audit    Per BCBSGA                                    Difference
Prior Audit Recommendation                 $4,658,857      $4,658,857                                        $0

Update of Medicare Segment Pension Assets
  Contributions and Prepayment Credits             72,950                                70,330            2,620
  Benefit Payments                            (1,319,909)                           (1,125,975)        (193,934)
  Net Transfers                               (1,145,566)                           (1,214,578)           69,012
  Earnings, Net Expenses                          378,931                               420,727         (41,796)
Under/(Over)statement of Medicare Segment Pension Assets                                              ($164,098)

PRIOR AUDIT RECOMMENDATION

BCBSGA properly implemented the prior audit recommendation (A-07-07-00236) which
recommended that BCBSGA increase the Medicare segment pension assets by $85,564 and
recognize $4,658,857 1 as the Medicare segment pension assets as of May 31, 2001.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

BCBSGA did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating Medicare segment pension assets to June 30, 2006.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

        . . . any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

                 1. The majority of the salary dollars is allocated to the Medicare
                    agreement/contract; or,

                 2. Less than a majority of the salary dollars are charged to the Medicare
                    agreement/contract, and these salary dollars represent 40% or more of
                    the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. For plan years beginning after March 30, 1995, the CAS requires
investment income and expenses to be allocated among segments based on the ratio of the

1
  The Total Company assets as of May 31, 2001, presented in the prior segmentation report were adjusted during the
current audit to properly account for accrued contributions allocated to plan year 2001. These adjustments restated
the value of the Medicare segment pension assets presented in our prior segmentation report.


                                                         4
segment’s weighted average value (WAV) of assets to Total Company WAV of assets. In
addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Prepayment Credits Understated

BCBSGA understated contributions and prepayment credits by $2,620 primarily because it
incorrectly allocated a prepayment credit in excess of the balance available as of
January 1, 2001, when computing the 2001 assignable pension cost. BCBSGA did not have
enough prepayment credits available at January 1, 2001, to fully satisfy the assignable pension
costs in 2001.

Effective May 31, 2001, the Non-Contributory Retirement Program of BCBSGA pension plan
assets merged into WHN’s Pension Accumulation Plan, which also contained a prepayment
credit balance. The Pension Accumulation Plan had sufficient prepayment credits to satisfy the
remaining assignable pension cost in 2001. Therefore, we allocated the prepayment credit
available at January 1, 2001, and a portion of the prepayment credit available at June 1, 2001,
from the Pension Accumulation Plan, to satisfy the remaining 2001 assignable pension costs.
BCBSGA transferred a prepayment credit of $70,330 while we transferred a prepayment credit
of $72,950, a difference of $2,260. This difference represents the interest accrued to
June 1, 2001, on the balance of the assignable cost not covered by the prepayment that was
available on January 1, 2001. As a result, BCBSGA understated the Medicare segment pension
assets by $2,620.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement date (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit.

Benefit Payments Understated

BCBSGA understated benefit payments by $193,934 because it did not identify two Medicare
segment benefit payments in 2001. Benefit payments made during the year to Medicare segment
participants should be identified as benefit payments to the Medicare segment, as required by
CAS 413.50(c)(7). This understatement of benefit payments resulted in an overstatement of the
Medicare segment pension assets by $193,934.




                                                 5
Net Transfers Understated

BCBSGA overstated net transfers out of the Medicare segment by $69,012 primarily because of
differences in identification of the Medicare segment participants. This overstatement of the net
transfer adjustment resulted in an understatement of the Medicare segment pension assets by
$69,012.

Earnings, Net Expenses Overstated

BCBSGA overstated investment earnings, less administrative expenses, by $41,796 for the
Medicare segment because it used incorrect contribution and prepayment credit amounts, benefit
payment amounts, and transfer amounts (all discussed above) to develop the Medicare segment
pension asset base as of June 30, 2006. In our audited update, we allocated earnings and
expenses based on the applicable CAS requirements and determined that BCBSGA overstated
earnings and expenses by $41,796.

A comparison of BCBSGA’s and our calculations of earnings, net expenses allocated to the
Medicare segment appears in Table 2.

            Table 2: Comparison of Medicare Segment Earnings, Net Expenses
            Year       Per Audit         Per BCBSGA           Variance
            2001           ($277,801)          ($265,307)         ($12,494)
            2002            (365,991)           (379,633)            13,642
            2003              555,423             575,470          (20,047)
            2004              273,435             285,459          (12,024)
            2005              132,044             139,816           (7,772)
            2006               61,821              64,922           (3,101)
            Total            $378,931            $420,727         ($41,796)

RECOMMENDATION

We recommend that BCBSGA decrease its Medicare segment pension assets as of
June 30, 2006, by $164,098 and recognize $2,823,263 as the Medicare segment pension assets.

AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our finding and recommendation.

While concurring with our finding and recommendation, NGS also suggested that the accuracy
and clarity of this report would be enhanced if one passage in the background section (page 1)
were to be revised as follows: “This report is being addressed to National Government Services,
Inc. (NGS) since the BCBSGA Medicare contract was terminated and transitioned to a Medicare
Administrative Contractor effective May 4, 2009. NGS is a subsidiary of WellPoint and
manages the administration of the organization’s existing Medicare government contract work.”

NGS’s comments are included in their entirety as Appendix B.


                                                6
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we determined that the suggested revision does not
enhance the clarity or accuracy of this report. Therefore, we did not incorporate NGS’s
suggested revision into this report.




                                             7
APPENDIXES
                                                                                                                                                                                                     Page 1 of2
                                                    APPENDIX A: BLUE CROSS BLUE SHIELD OF GEORGIA STATEMENT OF
                                                                    MARKET VALUE OF PENSION ASSETS
                                                            FOR THE PERIOD JANUARY 1, 2001, TO JUNE 30, 2006

                                 Description                                                      Total Company                                   "Other" Segment         Medicare Segment

       Assets January 1,2001                                                                                      $70,161,459'                            $65,324,602               $4,836,857

nn_.!,~~pa)'l!l,t:.I1~.<:::re~its                                                                                   ................ ~_~._ .. .
       Contributions                                                                                               34,810,908 I
       Other Transactions                                                                                         '65,143,??~r
      E~il!gsJ.~~!.g~Jll:lls.e~                                                        U.,                  .......... _J2,2~~J244)f                                                     (227,80.12
..... !3,t:.nefit Pa)'l!len~........n._                                     TT         §LL..n..
                                                                                 •.• • •          w   ••   nw     (10,9~8,593L.                                                          (l9~!?3.12
                                                                                                            ._e'.,,~~_~"
                                                                                                                                01
                                                                                                                                ,~~~,!     ~
                                                                                                                                                                                   (1,118,527)

       Assl:tsJanuary . I,.. ~002 . . ..                                                                         153,357,822                                                          3,319,545

        PrepIlYI!lI:!I!<:::Tedi~nw._~.                                                                                          o                                                                                   o
        Contributions                                                                                       ........ 1~,~44,554,                                                                                    o
        Other Transactions                                                                                         38,432,1~L                              38,432,157
    ...g.~ings, Net EXJlell.ses.                                                                                  (16,086,127                           . (!J,}20,136)
 .. ....BenefitPayments                                                                                           (16,~94,                                (16,}94,041)
        Transfers                                                                                                                                              52,653                         (52,653)

 ......t,:\~sets J llI1uaryl,2003                                                                                                                         173,353,464                 2,900,901 

                                                                                           I

       Prepa)'l!lcllt Credits                                                ···"It                                                                                                                                  o
       Contributions                                                                                             ._~,.~3~?~.6···1                                                                                    o
       Other Transactions                                                                                          155,125,495 .                                                                                     o
       Earnill~~I:t.g."p.l:nses                                    w   ••                                   _..._._.}~Jl.42~ 135                                                             555,423.
        BeIll:titPa)'l!len~                                                                                       (1~,4~~.487)
                                                                                                                                                                                              (19,10})               °
                                                                                                                                                                                       3,437,221
                    _ _ _._._ _.n._....
    .... rr~Jl.ll)'l!l..l:Il!.f.!I:.c!~_ _
         Contributions                                                                                                                                                                                               °°
         Other  ~
                       Transactions
              .. .. ......-..--.--."""-,,....­ ... .....--..-"...-.....
                    "


         Earnin.~l..l'l".I:!..§.~enses
                                       ""            '""-~-'-'--"~"-"""




                                                                                                                                                                               .....~.~~n,435
                                                                                                                                                                                       (827,987
                                                                                                                                                                                                                     °
         BeIle.ti!.!'.Il)'l!lents _ _ _.....
         Transfers                                                                                                                                                                     (122,092)

     _~~setsllll1uary 1•.2005..                                                                                  393,023,906                             390,263,329 .                 2,760,577

        Prepayment Credits                                                                                                       0'                                 o                                                    o
        Contributions                                                                                              46,000,000
                                                                                                                          _r._._.__
                                                                                                                                    i
                                                                                                                                """","~_   .,,>
                                                                                                                                                           46,000,000                                                    o
                                                                                                                                                                                   ········································0
        Other Transactions                                                                                                       01
        E~ings, Net Expenses                                                                                       18,642,1}9                              18,510,085                         132,044
        Benefit Pa)'l!lents                                                                                       (30,167,691)                            (30,160,341 )                        (7,350)
        Transfers                                                                                                                0:                          (166,809)                     .16~.&09

                                                                                                                 $427,498,344 ;                          $424,446,264i               $3,052,080
                                                                                                                                                                                                                                                Page 2 of2

                                    Description 	                                                              Total Company                                                                                 Medicare Segment

                                                                                                                            $427,498,344:                                  $424,446,2641                                                    $3,052,080


                 Contributions                                                                                                                                                                                                                      o
 -   ..•..•. =
                 Other Transactions
                     .,"--~,   ~---.-'   •..".--.-.-..   "~'-~""~"~"                                                                                                                                      -~.---   ..,.....   ~=-"--"~~-~
                                                                                                                                                                                                                                                    o
t-_E~arn~~"~g~, N~tExpe~c:~~~~
             13en..~.fit~~.!'~ents
             Transfers

~ __	
    f\ssets}!:I!1e 30, 2006                                            "". __... ~+_--,;-_ _ _ _____=$::..;4..:.17.;./. .;. 71;,.:1.z.:,8;.;;;8..:. 1'--_ _ _ _$::-4..:...;J4'~88::..;8:z.;,6;,.:1..::.8---------=$:;:;2.z.:,8:.:::23::..,;;;26~3
             Per BCBSGA                                                            i~I~0~/_ _ _ _----=$~4..:.1~7,~7~11:z.;,8~8~1~_ _ _ _;;;$4~1~4,~7~24~,5~2~0_ _ _ _ _----=$~2~,9~8~7,~36~1
             Asset Variance                                                                                                                 $0                         $164,098                                                $164,098



FOOTNOTES

     lL          We determined the Medicare segment pension assets as of January 1, 2001, based upon our prior segmentation audit of Blue Cross Blue
                 Shield of Georgia (BCBSGA) (A-07-07-00236, issued November 16, 2007). Although our prior audit recommended an asset
                 adjustment as of May 31,2001, the Total Company assets used in the prior report did not account for accrued contributions allocated to
                 plan year 2001. During the current audit, we adjusted the Total Company assets to properly account for all accrued contributions that
                 were allocated to plan year 2001 ~ The amounts shown for the "Other" segment represent the difference between the Total Company and
                 the Medicare segment. All pension assets are shown at market value.

     £d Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements 

                 before current year contributions in order to avoid incurring unallowable interest costs. Prepayment credits are maintained in the 

                 "Other" segment and transferred to the Medicare segment as needed to cover funding requirements. 


     'J.L 	 We obtained Total Company contribution amounts from the Department ofLaborllntemal Revenue Service Forms 5500. We allocated
                 Total Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
                 Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for in the
                 "Other" segment until needed to fund pension costs in the future.

     1L Other transactions were obtained from the actuarial valuation reports.        Effective May 31, 200 I, the Non-Contributory Retirement
                 Program ofBCBSGA pension assets merged into the WellPoint Health Network, Inc., Pension Accumulation Plan. As of the merger
                 date, the Pension Accumulation Plan pension plan assets contained a prepayment credit balance. A portion of the Pension
                 Accumulation Plan prepayment credit balance was transferred to the BCBSGA Medicare segment to fund the remaining assignable
                 pension costs in 200 I.

     'J{ We obtained investment earnings from documents prepared by BCBSGA's actuarial consulting firms. We allocated investment
         earnings based on the ratio of the segment's weighted average value (W A V) of assets to Total Company WAV of assets as required by
         the Cost Accounting Standards (CAS).

     flL 	 We based the Medicare segment's benefit payments on actual payments to Medicare retirees.                                                                             We obtained the benefit payments from
                 documents provided by BCBSGA.

     1L We identified participant transfers between segments by comparing valuation data files provided by BCBSGA.                                                                                          Asset transfers were 

                 equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS . 


     .!!L These "Other" transactions represent the acquisition of     Blue Cross Blue Shield of Missouri (Right Choice). Effective May 1,2002, 

                 Blue Cross Blue Shield of Missouri (Right Choice) merged into the Pension Accumulation Plan. These "Other" transactions did not 

                 impact the Medicare segment pension assets. 


     9/ These "Other" transactions represent the acquisition of the Cobalt Plan. Effective January 1,2003, the Cobalt Plan merged into the 

        Pension Accumulation Plan. These "Other" transactions did not impact the Medicare segment pension assets. 


 10/ We obtained total asset amounts as of June 30, 2006, from documents prepared by BCBSGA's actuarial consulting firms.

 ill The asset variance represents the difference between our calculation of Medicare segment pension assets and BCBSGA's calculation of
                 the Medicare segment pension assets.
                                                                                                          Page 1 of 2


                             APPENDIX B: AUDITEE COMMENTS 





A CMS ContrlUlesi AS""                                                      Medicare
NatKmaJ Guvemmenl.s...·rvkt's. Inc.
ww.,·.NGSMtadkant.c(lJ1l



June 2, 2011

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General, Region vn
601 East 12th Street, Room 0429
Kansas City, Missouri 64106

Reference: ReportNumber A-07-10-00344

Dear Mr. Cogley:

We have received the draft audit report from the Inspector General entitled "Review of Pension
Segmentation Requirements at Blue Cross Biue Shield of Georgia for the Period January 1,2001 to June
30, 2006" and thank you for the opportunity to respond.

We concur with the finding and related recommendation outlined in the report. We believe the
accuracy and clarity of the report would be enhanced with the adoption of the following proposed
revision:

     • 	 In the "Introduction" section (page 1) within the "Background" caption, please replace the 2nd
         paragraph with the following:

          This report is being addressed to National Government Services, Inc. (NCS) since the BCBSGA
          Medicare contract was terminated andtransitioned to a Medicare Administrative Contractor
          effective May 4, 2009. NGS is a subsidiary of WellPoint and manages the administration of the
          organization's existing Medicare government contract work

We appreciate the opportunity to respond to this draft report. If you have any further questions, I can
be reached at 414-459-5606 or via email attodd.reigerciYwellpoint.com.

Sincerely,
                                 Oigit~l!)' 'iigMd by Todd W. AelQ(r 

                                 ON; cn-lodd W. Relgtfl O"'N~:tjonal 

                                 Government S~j,es.I"'c~ ou..Finance, 

                                 em~;I.codd.feigel~~tlpoint.com. c",*uS 

                                 O~te:   201 '.06.02 08:57:41 .(I5'()O' 


Todd W. Reiger, CPA
Chief Financial Officer, Medicare Operations 	

                                                                                         CAlIS/
                                       Page 2 of 2




]une2,2011
Page 20f 2

cc: 	        Sandy Miller
             Michael Kapp
             Jeff Hannah
             Wendy Perkin~
             Joanne Imel- Well Point
             Jenenne Tambke - ore
